      \ (­





                                 RESIDENT ABUSE IN NURSING HOMES



                                  RESOLVING PHYSICAL ABUSE COMPLAINTS




                                           Richard   P.   Kusserow
                                          INSPECTOR GENERAL




              OEI- 0688-   001                                          APRIL 199


!I.
                        , '





                                               EXECUTIVE SUMMARY


 PURPOSE AND BACKGROUND

 The OIG conducted this study to promote a better understanding of abuse in nursing
 homes. This is the second of two report. It examines existing processes for
 resolving physical abuse complaints involving nursing home residents. The first
 report Resident Abuse in Nursing Homes: Understanding and Preventing Abuse
 examines the nature of abuse and ways to prevent it.                     Both reports reflect the
 experiences and perceptions of knowledgeable individuals who 1) play some part
 directly or indirectly, in the resolution of abuse complaints , or 2) have an interest
 nursing home or elder issues.

Abuse of the elderly is not a new phenomenon. Research findings and
Congressional hearings of the 19705 and 1980s helped to increase public awareness
of elder abuse. However, little research has focused on the issue of abuse of nursing
home residents; certainly, no national survey has been initiated. Existing studies of
abuse focus primarily on family membf;rs and caregivers in their homes. Research
indicates from 1 to 10 percent of the non- institutionalized elderly population may be
subject to abuse.



While there are no exact statistics on institutional abuse , any abuse is unacceptable.
Each incident major or ' minor ' may be a terrifyng experience and a significant
breakdown in the responsibilty of government to assure a safe and caring
environment for elderly and disabled individuals. The price for abuse is measured in
the physical and psychological harm to the resident as well as by the economic costs
of treating the abused resident.


METHODOLOGY

Since natinal            abuse         statistis are not available and States vary in how they define and
collect statitis,we decided to survey knowledgeable inividuals involved directly or
indirectly with nursing home care. 
Specifically, the inspection relied on 232 intervews
with respondents representing State, national , and Federal organizations which are
either 1) involved with receiving, investigating, and/or resolving nursing home abuse
complaints , or 2) knowledgeable and concerned about nursing home or elder issues.

Respondents , based on their functional expertise and knowledge , answered a wide
range of questions concerning the current State and Federal systems for resolving
complaints involving nursing home residents. Further, selected respondents were
asked to provide 1) available statistics concerning complaints received and resolved
and 2) applicable State laws and/or regulations. The experiences and perceptions of
the participants coupled with a review of State and Federal policies provide the basis
for the findings and recommendations of this report.




MAJOR FINDINGS

Systems for reportg   abus complaits       involvg   nursing home residents   va among
States.

   State requirements for reporting abuse and penalties for non-reporting vary.

   Most States have identified an individual to receive complaints of nursing home
   resident abuse , often by means of a " hotline. " Yet, reporting does not always
   occur.

Weaknes exit in reslution       of and follow-up    activties for abus complaints.

   According to many respondents , a lack of communication and coordination
   among involved agencies weakens the complaint resolution process.

   States vary in their interpretations of the investigative responsibilties of State

   Ombudsmen and Medicaid Fraud Control Units (MFCUs).

   Prosecution of substantiated abuse incidents is hindered by the difficulty of
   proving the abuse and obtaining the evidence required for prosecution. When
   confirmed , most instances of abuse wil result in staff dismissal but no criminal
   prosecution.

State and Federa abus recrd-keeping and oversight actties           nee strengthenig.
   Analysis of national abuse statistics was not possible because of variations in the
   definitions and tyes   of abuse   statistics collected under existing State and Federal
   reporting requirements.


   Many respondents familar with the Health Care Financing Administration
   (HCFA) nursing home certification survey guide identified problems with its use
   and application.
RECOMMENDATIONS

STATE AND lOCAl RESPONSIBIUTES

   Each State should establish a State-wide network of responsibilties and
   supporting processes to report , investigate , resolve , follow-up, and prevent abuse
   in nursing homes. Regardless of the components of the network, a single entity
   must be responsible for its operation.

   States should be permitted flexibilty in deciding how best to establish such a
   system of State agency roles and responsibilties. However, States should
   consider the need to 1) enact new legislation or strengthen existing laws to
   implement this process , and 2) ensure appropriate resources for its operation.

FEDERAL RESPONSIBIUTES

   The HCF A should require stronger reporting, investigation , resolution , and .
   follow-up of abuse incidents as part of its conditions   of participation for hospitals
   and nursing homes.
                                     '1 (

   The Administration on Aging (AoA) should expand and strengthen its efforts to
   1) issue periodic public reports concerning best practices for preventing and
   dealing with resident abuse , 2) promote public awareness and education
   concerning abuse occurring in nursing homes , and 3) promote use of volunteer
   Ombudsmen in Yall nursing homes.

   The HCF A and the AoA should jointly develop common definitions and
   categories of abuse for all State and Federal reporting purposes.

ADDmONAl ACTION BY THE OIG

The OIG will , through its oversight responsibilty, encourage State MFCUs to:

         promptly evaluate reported incidents and complaints of suspected abuse
         and take timely, definitive action , with decisions not to prosecute reported
         to the designated State agency,



         foster closer relationships with all local prosecutors involved in abuse cases
         and

         report abuse convictions   to the OIG for possible   sanctions.
DEPARTMENTAl COMMENT

This report has been modified to reflect many of the comments received from within
and outside the Department of Health and Human Servces. Comments from the
Assistant Secretary for Planning and Evaluation, the Office of Human Development
Servces , the AoA, and HCFA are included in the appendix to the report. They
generally agreed with our findings and recommendations. The HCFA indicates it has
already done much to accomplish the recommended changes.
                              TABLE OF CONTENTS





EXECUT SUMMAY


INTODUCTION
  Purpose
  Background
  Scope and Methodolog


FINDINGS

  Systems for reporting abuse complaints involving nursing home residents
  vary among States.
                                          '1 '
  Weaknesses exist in resolution of and follow-up activities for abuse complaints.

  State and Federal abuse record- keeping and oversight activities need
  strengthening.


RECOMMENDATIONS


DEPARTMENTAL COMMENTS


APPENDICES
  A.
  B. National Organization Respondents
                           Home Laws and Regulations
  C.
  D.
        State Eldert or Nursing
        Degree of Nursing Home Abuse Reporting

  E. Departmental
  F.
                  Comments
     Public Comments
        Bibliography
                                -.. --..-..            ...




               ACTUAL AND PROJECTE GROWTH OF THE                   ELLY

                                PO T1 (65 YE Ol)

                                                                              NUMBER (IN MILUONS)

                                                                             PECEN OF POPULATI




                       20 -..-..-..-..-..-..
                       10 -..

                            1970 198     199 20      2010 2020
                                                 YEAR SO Cl                    PO T1 RES NO.
                                                                                      us   CE IUU
NUMBER (IN MIWONS)
PERCEN OF POULATI


                                          FIGURE 1



             PROJECTION OF THE NURSING HOME POPULATION
                       65 YEA AND        OLER BY AGE GROUP


 C/ 4

                                                                3 5            EiSS AND OVER

                                                                                   75 - 84

                                                                               D65­




 Z 0

           198       1990       20            2010   2020
                                      YEAR
                                                                IO AQ
                                                             PMAN 8Y     S. 8!TI
                                                                       U o
                                                                              ADT1 8I
                                                                               AI 188-8
                                                                                           ON




                                         FIGURE 2

                                    INTRODUCTION



PURPOSE

The OIG conducted this study to promote a better understanding of abuse in         nursing
homes. This is the second of two reports. It examines existing processes for
resolving physical abuse complaints involving nursing home residents. The first
report Resident Abuse in Nursing Homes: Understanding and Preventing Abuse
examines the nature of abuse and ways to prevent it. Both reports reflect the
experiences and perceptions of knowledgeable individuals who 1) play some part
directly or indirectly, in the resolution of abuse complaints , or 2) have an interest in
nursing home or elder issues.


BACKGROUND

Americans are living longer, and the71 nation
                                       l      s elderly population is growing at an
unprecedented rate , partially as a result of new technologies and medical advances.
There are now 28 milion people aged 65 or older; by 2030 , they will number more
than 60 millon , or 21.2 percent of the total population (figure 1). As individuals live
longer , their need for nursing home care may increase.

While only about five percent of the elderly population are in nursing homes at any
given time , it is likely the nursing home population will continue to grow rapidly as
the very old segment of the population continues to expand. Projections indicate 3.5
milion elderly individuals will be living in nursing homes by 2030 (figure 2). The
growth in the number of older people experiencing both disabilties and
dependencies may place additional physical and emotional stress on both institutional
and non- institutional
                     caretakers. Persons advanced in age , limited by mental and/or
physical impairments and dependent on others for their daily care , constitute the
population most vulnerable to abuse.

Abuse of the elderly is not a new phenomenon. Research findings and
Congressional hearings of the 19705and 1980s have helped to increase public
awareness of elder abuse. Exsting studies of abuse have focused primarily on family
members and caregivers in their own homes. Research indicates from 1 to 10
percent of the non- institutionalized   elderly may be subjected to abuse. The incidence
of and facts concerning institutional resident abuse are less known.

Doty and Sullvan (1983) note that both Federal and State sources report receipt of
incidents of resident abuse each year. Monk, Kaye , and Litwn (1984) found that
. .                 , '





      State Long-Term Care Ombudsmen receive many complaints about nursing home
      staff treatrpent of residents. Further , they note a substantial amount of maltreatment
      is never reported.

      PiIemer and Moore (1988) provide one random survey designed to assess the scope
      and nature of physical and psychological abuse in nursing homes. They found that 36
      percent of the sampled nurses and nurse aides had seen at least 1 incident of
      physical abuse in the preceding year; 10 percent   reported they had committed 1 or
      more physically abusive acts.

      While there are no exact statistics on institutional abuse , any abuse is unacceptable.
      Each incident major ' or ' minor ' may be a terrifyng experience and a significant
      breakdown in the responsibilty of government to assure a safe and caring
      environment for elderly and disabled individuals. The price for abuse is measured in
      the physical and psychological harm to the resident as well as by the economic costs
      of treating the abused resident.

      Federal Roles

      Three Department of Health and Human Servces (HHS) agencies have either direct
      or indirectinvolvement with nursing homes and servces to residents of nursing
      homes: the Office of Human Development Servces/Administration on Aging
      (OHDS/AoA), the Health Care Financing Administration (HCFA), and the Office
      Inspector General (OIG).

      Administration on Aging

      The Administration on Aging (AoA) of OHDS is the primary Federal agency
      responsible for the State Long-Term Care Ombudsman (hereafter referred to as
      State Ombudsman) program. It further serves as the visible advocate for the elderly
      within HHS. The AoA meets the needs of the elderly mainly through a program of
      grants to State Agencies on Aging under Title III of the Older Americans Act
      (OAA) (as amended (42 U. C. 3001 et seq. )J. Title III also authorizes activities for
      the prevention of elder abuse. The Act requires each State Agency on Aging to
      establish and operate a State Ombudsman program to receive and review complaints
      concerning nursing home residents.

      Health Care Financing Administration

      The HCFA administers Medicare and Medicaid program operations. Within HCFA,
      the Health Standards and Quality Bureau (HSQ) has oversight responsibilty for
      Medicare and Medicaid nursing home standards of care designed in part to ensure
      an environment free from abuse.    To meet this obligation , HCF A develops and
      administers the regulatory requirements for nursing homes participating in either
 Medicare or Medicaid ,   develops training requirements for surveyors who conduct
 nursing home inspections , conducts yearly compliance surveys of five percent of those
 facilties previously surveyed by the State , and monitors State compliance surveys for
 quality assurance.

 The HCF A may directly receive complaints of abuse involving nursing home
 residents. However, these will usually be referred to the applicable State agency for
 nursing home certification unless the allegation involves an " immediate and serious
 threat" to patient health and safety.

 Office of Inspector General

 Through Public Law (P. L.) 94- 505 , enacted in 1976 , the OIG was established as an
 independent unit in HHS with the authority to preven and detect fraud and abuse
 in Department programs. The OIG is required to 1) recommend policies for the


                                           abuse. .
 detection and prevention of fraud and abuse within programs and operations
 administered or financed by the Department and 2) conduct, supervse , or coordinate
investigations related to such fraud and

Under Section 1128 of the Social Security Act , the OIG was provided authority to
impose sanctions against health care providers convicted of Medicare or Medicaid
offenses or suspended or excluded or otherwse legally or administratively sanctioned
by appropriate State entities. In meeting this statutory authority, the OIG works
with other Federal , State , and local governmental agencies and nongovernmental
entities. As a furthet part of this authority, the OIG/Office of Investigations (01)
has oversight of and grant certification responsibility for State Medicaid Fraud
Control Units (MFCUs).

The Medicare and Medicaid Patient and Program Protection Act of 1987 amends
titles XI, XVII , and XIX of the Social Security Act to protect beneficiaries from
unfit health care practitioners. The Act states that if an individual is convicted of
patient abuse in connection with the delivery of a health care item or servce
exclusion from the Medicare and Medicaid programs is mandatory.

In September of 1986, the OIG/OI published an " Investigative Guide for the
Detection of Patient Abuse. " The guide was made available to State MFCUs for
training and reference purposes.

Existing Nursing Home Requirements

The Medicare and Medicaid programs traditionally have used a condition of
participation (COP) format to define requirements which must be met by facilities in
order to participate in the programs. This format is based on the principle that each
condition level statement would be a statutory requirement while standard level
statements would be lesser requirements within a condition.

Under current law, a skilled nursing facilty (SNF) must meet COPs to participate in
the Medicare or Medicaid programs;      intermediate care facilities (ICFs) must meet
standards. Current COPs and standards were originally published in 1974. The
SNFs have a single uniform definition which extends the same level of care
requirements to both Medicaid and Medicare programs. The ICF benefit was
intended to allow facilties which did not meet SNF COPs to participate as ICFs and
provide health-related care , not at the skilled level , to Medicaid patients.

Provisions for resident rights are     ambiguous and enforcement is difficult because a
resident' s rights and a facilty s obligations are sometimes unclear. Recognizing that
a resident' s rights , living conditions , and medical care are essential components of the
quality of life in a facilty, HCF A developed outcome oriented survey instruments in
June 1988. The emphasis of current regulations is on process , not outcomes of that
process as is relates to residents. The regulations do not contain any SNF COP or
ICF standard for a resident assessment. Also , there is no quality of care COP
utilzing resident care outcomes , especially negative ones , to assess whether residents
are receiving satisfactory care.

Existing Medicare COPs are located at 42 CFR ,      Part 405 ,   Subpart K and implement
Section 18610) of the Social Security Act. Current Medicaid standards are in 42
CFR , Part 442, Subpart D , E , and F.

Omnibus Budget Reconciliation Act of 1987 (OBRA '        87).     L. 100- 203


On December 22 , 1987, OBRA ' 87 was enacted. The law            includes extensive
revisions to the Medicare/Medicaid statutory requirements for nursing facilities.
Nursing home reform provisions , to be implemented October 1 , 1990, establish
uniform requirements for Medicaid SNFs and ICFs. The law revises the conditions
under which nursing homes may participate in the Medicaid/Medicare programs , the
process for monitoring compliance with law, and the remedies available to Federal
and State agencies in the event of noncompliance. It further expands nursing facilty
resident rights to include freedom from 1) inappropriate use of physical or chemical
restraints and 2) physical or mental abuse or punishment.

The NF (any Medicare SNF or Medicaid facility which is not an ICF for the
mentally retarded) must inform residents orally and in writing of their legal rights.
The HCFA draft regulations provide all incidents of abuse be reported to the
nursing home administrator or to any other agency designated by State law.
Residents may fie a complaint concerning abuse or neglect with the State
survey/certification agency. The NF must permit the State Ombudsmen access to the
resident and the resident            s clinical records with the permission of the resident or the
resident s legal representative.

The NFs will be required to verify the competency of applicants prior to their
employment as nurse aides. No nurse aide mflY be employed for more than four
months unless the individual has completed State-approved training or successfully
passed a competency test. Verifcation of a nurse aide s competency will be
strengthened through the required use of a State maintained nurse aide registry.
This registry will certify that the individual has met the required training
requirements and indicate the documented findings , not limited to convictions , of
resident abuse , neglect, or misappropriation of resident property involving an
individual listed in the registry. If the State determines a nurse aide has been
involved in these activities , the State will , after notice and reasonable opportunity to
rebut allegations in a hearing, notify the nurse aide and the nurse aide registry.

State and Local Roles

The priary           respomibilit for designing,  operating, and coordinating services for the
elderly lies with the States. 
        Severed State agencies may be responsible for resolving
nursing home problems including: . '1 '

                          nursing home complaint coordinators
                          State Ombudsmen (under the direction of the State Agency        on
                          Aging),
                          MFCU or other legal authorities where no MFCU is established
                          agencies for nursing home certification and licensure
                          licensure agencies for medical personnel
                          adult protective servces , and
                          local law enforcement.

The nursing home complaint coordinator is the individual designated to nursing home
administrators as the central State authority to receive complaints of mistreatment or
neglect of nursing home residents. This individual may be in any number of State
agencies or part of a designated complaint unit , but is usually a staff member of the
State nursing home survey and certification agency.

The State Agency on Aging, through the State Ombudsman , is required by the OAA:

                          to establish procedures for maintaining a State-wide   reporting system
                          to collect and analyze data related to complaints and incidents;

                          to monitor the development and implementation of Federal , State
                          and local laws , regulations , and policies with respect to long term care
                          in the State;

                to provide public education on their activities and long term care
                issues; and

                to promote training and certification of ombudsman staff and
                volunteers.

The MFCUs are also required to review " complaints      alleging abuse or neglect of
patients in health care facilities receiving payments under the State Medicaid plan.
If the initial review indicates substantial potential for criminal prosecution , the unit
shall investigate the complaint or refer it to an appropriate criminal investigative or
prosecutive authority" (Social Security Act , section 1903(q)). At the time of this
inspection , there were MFCUs in 38 States. Those States without a MFCU have
agencies with parallel responsibilties for investigation of fraud and abuse (e.g. , State
Attorney General).


SCOPE AND METHODOLOGY

At this time , there is no uniform definition of abuse among the States or researchers.
The term abuse may cover many problem areas for nursing home residents ranging
from environmental conditions needing correction to actual mistreatment of residents.
For purposes of this inspection , abuse is defined as mistreatment or neglect of
nursing home residents and encompasses seven categories of abuse , excluding
environmental and financial issues. These seven categories were defined using simple
definitions (figure 3) based on a review of the literature related to abuse (appendix
F).

Since natinal abuse   statitics are not available and States vary in how they define abuse
and collect statistis, we decided to survey knowledgeable individuals involved directly or
inirectly with nursing home care.    Specifically, the inspection relied on 232 intervews
with respondents representing State , national, and Federal organizations which are
either 1) involved with receiving, investigating, and/or resolving abuse complaints
involving nursing home residents , or 2) knowledgeable and concerned about nursing
home or elder issues (e.g. , State oversight agencies for nursing homes or advocates of
the elderly or nursing homes). (See appendix A and figure 4 for summary
information on respondents sampled. ) These individuals were identified through
contacts with the regional HCF A offices as well as several State agencies (e.g. , State
Ombudsman and single State agency for Medicaid).

A minimum of three principal entities were intervewed in each of 35 States: 1) State
Ombudsman , 2) investigator or director of the State MFCU , or legal counterpart
where no MFCU exists , and 3) State nursing home complaint coordinator (the
nursing home administrators ' primary contact for abuse complaints). These entities
 were selected because our preinspection indicated they were the most often involved
 in nursing home abuse complaint receipt and resolution in most States. In 8 of the
 35 States , we intervewed additional individuals including nursing home
 administrators , nursing home and resident advocates , and medical professional
 licensure personnel. Figure 4 shows the 35 State& from which respondents were
 selected.

  Participants , based on their practical expertise and knowledge , answered a wide
  range of questions , by telephone or in- person intervews , concerning different aspects
  of abuse in nursing homes including the prevalence and severity of the seven abuse
  categories. Further, selected respondents were asked to provide 1) available statistics
, concerning complaints received and resolved , and 2) applicable State laws and/or
  regulations.

 This report focuses on the respondents ' perceptions and understanding of existing
 processes for resolving physical abuse complaints. Unlike the other six categories of
 abuse , physical abuse is generally easy to recognize and has more   consistency of 


 definition. Further, it is a form of abuse for which States may have developed a

 process to resolve complaints. The responses , coupled with a review of State and

 Federal policy and available literature , pr ovide the basis for our findings and
 recommendations and appear consistent with the information and statistics available
 from the States and independent researchers.
                       INSPECTION ABUSE DEFINITIONS

ABUSE :       Mistreatment or neglect of                   nursing home residents.


     Phvsical Abuse

     Infliction of physical pain or injury.

     Examples Include individuals either 1) reactng inappropriately to a situation, such as pushing or slapping a resident,
     or 2) Intentionally doing boily harm.



     Misuse of Restraints
     Chemical or physical control of a resident beyond physician s orders or not in
     accordance with accepted medical practice.
     Examples include stff failng to loosen the restraints within adequate time frames or attempting to cope with a
     resident' s behavior by inappropriate use of drugs.



3.   Verbal/Emotional Abuse

     Infliction of mental/emotional suffering.

     Examples include demeaning statements, harassment , threats, humilation or intimidation of the resident



     Phvsical Neglect
     Disregard for necessities of daily living.
     Examples include failure to provide necessary food , clothing, clean linens or daily care of the resident's necessities
     (e. g., brushing a resident' s hair, helping with a resident's bath).




     Medical NeQlect

     Lack of care for existing medical problems.
     Examples include ignoring a necessary special diet, not callng a physician when necessary, not being aware of the
     possible negative effecs of medications ,   or not taking action on medical problems.



6.   Verbal/Emotional NeQlect
     Creating situations in which esteem is not fostered.
     Examples include riot considering a resident's wishes, restricting contact with family, friends or other residents , or
     more simply, ignoring the residents ' need for verbal and emotional contact



7.   personaLPropert Abuse (             Goods)

     Illegal or improper use of a resident's propert                              by another for personal gain.

     Examples include the theft of a resident' s   private television, false teeth ,   clothing or jewelry.




                                                           FIGURE 3
                                  RESPONDENT SAMPLE





                                                                                       * Sta tea Visited Onslte





                                                                      SURVEY RESPONDENTS BY ROLE


                                                                                                        ot    All
                                                          Type of Respondent            Number     Respondent
                                                          State
                                                           Complaint                                   16%
                                                           Coordina tor


                35 States Contacted                        Survey and Certification

                                                           Surveyors
                                                           MFCUs Or Counterpart
Alabama          Louisiana          New Mexico                                                         18%
Alaska           Maryland           New York               Professional Medical

Arkansas         Massachusetts      North Dakota           Licensure Boards

California       Michigan           Ohio
Colorado         Minnesota          Oklahoma               Ombudsman                                   16%

Connecticut      Mississippi        Pennsylvania
Florida          Missouri           South Carolina *       Residenl Advocacy

Georgia          Montana            Texas                  Organlza tlons

Idaho            Nebraska           Washington             Nursing Home
Indiana          Nevada             Wisconsin              Industry
                                                                                                       13%
Illnois          New Hampshire      Wyoming *
Kansas           New Jersey
                                                          National Organizations
    States with no Medicaid Fraud Control Unit
                                                           Consumer. Industry and
                                                           Local Law Enforcement

                                                          Federal
                                                               HCFA
                                                               DIG




                                                   FIGURE 4

                                       FINDINGS


       SYSTEMS FOR REPORTING ABUSE COMPLAINTS INVOLVING

          NURSING HOME RESIDENTS VARY AMONG STATES


State reQuirement fo rePOrtng abuse and penales for non-reportng Var.
While a number of States lack legislation specific to abuse in nursing homes , almost
all States have laws or regulations protecting the elderly. (See appendix B for a
partial listing. ) Included in at least 43 State laws for the elderly is a requirement
that abuse be reported. Central to most reporting laws is the requirement for
licensed medical personnel in a health care facility to report abuse. Some States also
require reporting by unlicensed staff such as aides , orderlies , housekeepers , dieticians
and other staff. Some States require anyone with knowledge of abuse to report it.
Although designated reporters may stil be reluctant to report abuse , fear of penalties
such as license revocation , fines , or even criminal prosecution may overcome the
reluctance to report.

. Stes provide some immunit from liabilit for the reportng of abuse.

   State laws presume the good faith of the person filing a report and grant the
   person some immunity from liabilty. Also ,     reporting laws may protect the
   reporter ('whistle blower clause  ) from being discharged from employment or
   harassment. The 1987     Amendments to the OAA Ombudsman Program
   specifically require States to "prohibit retaliation and reprisals by a long term care
   facility or other entity with respect to any resident or employee for having filed a
   complaint with or providing information to , the Office " of the Ombudsman (OAA
   Sec. 307(a)(12)(J)(ii)).

. Penaes for noreportng          va among States.
   Most respondents (80 percent) indicate there is a State penalty for non-reporting
   of known or suspected incidents of physical abuse. Such penalties are generally
   classified as misdemeanors with a designated fine and/or possible short- term
   prison sentence. Some respondents indicate non-reporting may also result in a
   loss of licensure or monetary fine for the involved facilty. However , 83 percent
   of the respondents who indicated a State penalty for non-reporting, further
   indicate States rarely or never enforce those penalties.
Mo Stes hae
resid ab.
                       id
                     ofen by    mea
                                      an indivdual to recive coPiaint
                                                    ne. . Yet.
                                                             rePOna doe no

ocr.
This individual (labeled " complaint coordinator" in this study) may be in any number
of State agencies , but is usually a staff member of the State nursing home survey and
certifcation agency. While few States have funded special units to respond to
nursing home complaints , most States have added the responsibilties of receiving,
investigating, resolving, and follow-up to existing departments.

A hotline may be located in the coordinator s agency or in another agency. The
hotline mayor may not be a toll- free 24- hour manned line. When not manned
reports may have to be held until normal working hours. Sometimes there are
several routes for reporting abuse , depending on where th abuse occurs , who the
abuser is ,   or the severity   of the incident.


. A   signifca percege of respondent (46 percent) believe abus is only
   soetme or rarely reported.
   Thirty-seven percent of the respondent's said abuse is reported only sometimes;
   nine percent indicate reporting rarely or never occurs. If these respondent
   perceptions are accurate ,         many cases of abuse go unreported each year.

   Opportnites fo resent ,              failies or visitors to report abuse are available but
   are no alays us.
   Reasons given by respondents for non-reporting include:

                  Residents and/or family members sometimes lac              the    nowled.&
                  how and to whom reports of abuse should be made .                Although
                  nursing homes are required , as a condition of participation in the
                  Medicaid/Medicare program , to explain and display resident rights
                  which include how to report complaints , some respondents believe
                  this is not done adequately.

                  Residents fear retaliation from nursing home staff. Part of the failure
                  of residents to report abuse can be attributed to the nature of the
                  nursing home resident/employee relationship. Residents are
                  dependent on nursing home staff to respond to their basic needs.
                  Some residents fearing retaliation (real or imagined) may choose to
                  endure the suffering rather than risk the consequences of reporting
                  acts of abuse. Similarly, residents , as well as family members , fear
                  the nursing home might retaliate by discharging the resident for
                  report of mistreatment.
             Physical or mental ilness limits reporting . Many   respondents report
             that the residents   most vulnerable to abuse are physically or mentally
             impaired and ,                                        Even those
                              consequently, have diffculty reporting.
             aware something is wrong may be unable to articulate their concerns
             or to recognize the perpetrator of the alleged abuse because of those
             impairments. The reporting and subsequent activities to resolve the
             complaint may be physically and emotionally taxng. Consequently,
             residents may simply choose not to report and thus avoid any further
             stress.

. Ab ofen go unrepoed by nursing home st.
  When asked specifically how often abuse is reported by nursing home staff, many
  respondents (51 percent) believe abuse is only sometimes or rarely reported by
  nursing home staff. This indicates many cases of abuse may go unreported by
  staff. Respondents believe the primary reasons staff do not report abuse include:
             a basic fear of losing one s job

             the sense of loyalty shared among staff

             fear of retaliation by the nursing home or peers
             fear of fines or penalties

             fear of bad publicity,
             lack of clear or suffcient facts ,
                                              and
             failure to recognize the less blatant forms of abuse.

  According to one patient advocacy group, " almost every nursing home
  administrator (they) speak with seems to have a different view of what has to
  reported and when. " This advocacy group has " seen very inconsistent application
  of reporting requirement timeframes. The requirement that the reporting be
   immediate ' is usually ignored.

. A   maor of resnt    say atending nursing home physician rarely or
  neer report ab; a lage number indicae emergency room physicians also
  rarely or never rep abus of nursing home resident.

  Approximately 66 percent of the respondents report physicians attending nursing
  home residents rarely or never report abuse (appendix C). In fact, one State
  complaint coordinator reported never receiving a complaint from an attending
  physician. A large number of respondents (37 percent) also believe emergency
  room physicians rarely or never report abuse of nursing home residents who are
  injured severely enough to require emergency care.
    Nearly half of all respondents (47 percent) say lack of frequent involvement with
    the residents is a primary reason nursing home physicians rarely report abuse.
  , Some respondents believe emergency room physicians may not report because
    they are more concerned with the immediate treatment of the resident and either
    are too busy to report or do not recognize the. abuse. According to respondents
    other common reasons physicians , in general , may not report abuse are:

               identification with the staff and their problems in coping with
               residents
               busy schedules

               apathy,
               insuffcient facts

               belief the incident has already been reported , and
               may be unaware of requirement to repor.t.


               WEAKNESSES EXIST IN RESOLUTION OF AND

             FOLLOW- UP ACTIVITIES FOR ABUSE COMPLAINTS


Accrding to man respondent. State and Federal procures for reslvnQ
abuse complaint are inadequate.

Respondents perceive many overlapping and sometimes conflcting responsibilties of
the involved local, State , and Federal entities. As a result , even in States with
established procedures , there are weaknesses in the current systems to protect
nursing home residents and to prevent abuse.

Of those respondents who reacted to questions about the effectiveness of current
State and Federal efforts to protect residents from abuse , 41 percent indicate State
systems are no better than " somewhat effective " at protecting residents. Of those
respondents familar with Federal responsibilties , 55 percent indicate the Federal
roles are only somewhat effective in resolving abuse of nursing home residents.

   Repont rep inaduacies in communicaon an cordinatn
   th ma Ste an Federal agencies having roles in the reslut of abus
   coplaint.
   Assessing and resolving abuse is rarely simple.   Many States have several agencies
   with parallel or overlapping roles which receive , investigate or resolve abuse
   complaints involving nursing home residents. A report by the American Public
   Welfare Association and the National Association of State Units on Aging (1986)
   identify 30 possible tyes of State agencies having roles in either the nursing
   home or the community.
Through contacts with the State agencies , we tyically found at least four State
entities usually involved with investigation and/or resolution of complaints
involving abuse of nursing home residents: 1) the complaint coordinator, 2) the
Ombudsman, 3) the MFCU or State counterpart , and 4) local law enforcement.
In addition to these State entities , some respondents were familar with
responsibilties of two previously identified Federal agencies: the OHDS/AoA
and HCFA. Few respondents , other than the MFCUs , had any knowledge of the
role and responsibilties of the OIG. Most respondents were unfamilar with any
investigative role by Federal agencies. A few indicated HCFA might perform an
investigative role. Additionally, respondents indicate HCFA and the AoA do not
usually participate in investigations concerning individual abuse complaints and
rarely have direct involvement in processes for resolving complaints.

Respondents indicate States have some process in place for resolving abuse
complaints. However , no one State or Federal agency has responsibilty for the
full resolution process and for assuring all applicable entities are involved. Thus
the process can be impeded , particularly when clear role definitions are lacking.
In many instances , the involved agencies operate through informal agreements
with the State agencyempowered to levy sanctions. Unfortunately, these
agencies may not report back with their findings and resulting actions in a timely
manner.

Many respondents identified weaknesses in State or Federal processes for
coordination and communication among appropriate agencies. Communication
coordination , division of responsibilty, and rel tive activity differ among States
and among State and Federal entities. Even those few States with special units
to investigate ,resolve, and ensure follow-up activities of abuse complaints
involving nursing home residents exhibit weaknesses in performing some of the
essential functions (e.g. , lack of communication with the OIG).

To summarize respondent concerns about inadequate coordination of investigative
agencies , we present the following quote from a elder advocacy              group concerning
a particular state:

      We are concerned that there appers to be less than desirable

      arrangements to cordinate investigations of alleged abuse with other

      investigative agencies. Most notably, there is an apparent lack of

      cordination between the  Patient Rights Investigation and Monitoring

      Setion and the Attorney    General's Health Care Fraud Unit.    In almost

      all   ca involving alleged abuse of nursing home residents, we fie

      complaints with both offce.     We have seen little evidence that

      investigations are cordinated   in any significant   way.

                                                           " "




  While mo    Stes hae regula or laws governing the init of an
  ines,        ma respont indice their Ste doe no ha
              ines
  time limit fo coplng
                                                                         eslis
  to   pe ines all
                                  or st wi invesgae baground
                                regardles of the   ty of alleged ab.
  The time frames for an investigation by the authorized entity vary among States.
  Some States are vague and call for- action " immediately, promptly" or " as soon
  as possible. " Those with definite time limits may range from ' 'wthin 24 hours " to
  'wthin three days. " Some State investigation agencies have been given the
  authority to determine the urgency for complaint investigations. Consequently,
  they have the authority to delay investigations.

  How an investigation proceeds is nearly as important as when an investigation
  occurs. Complaints should be in,:estigated with the goal of quickly substantiating
  or negating the complaint. This process should determine the validity of the
  complaint while protecting the rights of both the abused individual and the
  suspect.

  When the investigation does take place , investigators should be familiar with
  investigative techniques , prosecutorial requirements of evidence , and intervewing
  techniques specific to the disabled or elderly nursing home resident. Yet, many
  respondents indicate these are deficiencies of many investigations. Some
  respondents believe the investigative function is also weakened by a lack of
  suffcient investigatprs and a need for medical expertise to support some
  investiga tions.



. Respoden indicae th primar invesgator for mos nursing hoe abus
  complaint is th nursing home administator or someone to  s/he haswh
  delegated this responsibilit.

  Complaint coordinators may investigate the situation themselves or delegate the
  responsibilty to others such as a local social worker or the local police. When
  the incident is not severe in nature , as many are not , the complaint coordinator
  may delegate the responsibility for the investigation to the nursing home
  administrator. The administrator , or someone to whom s/he in turn has
  delegated the responsibilty, will investigate and report the findings to the
  complaint coordinator. In some cases , administrators may initiate investigations
  and take corrective action but fail to report the incident.

  Ma respoden repo lo law enforcement autories are rarely involved
  in th invesgat or resluton of nursing home abuse.

  Respondents indicate police are rarely called for incidents occurrng in nursing
  homes. The severity of the abuse usually dictates whether or not there will be

                                         15 ­
    police involvement. If an incident of abuse is reported to the police , they may
    choose not to work closely with other involved agencies. If they receive an abuse
    complaint involving a nursing home resident, many respondents indicate the
    police will refer the reporter to another entity because they feel no responsibilty
    to deal with " nursing   home issues " involving no perceived criminal activity.

   If police are mandated to report and investigate abuse incidents reported to
   them , they must know whom to contact concerning a harmful situation requiring
   non-police remedies. Additionally, respondents believe a lack of knowledge by
   the police in dealing with elderly or disabled nursing     home residents wil impact
   on how effectively they perform their investigations. While police clearly have     a
                               abuse and theft of propert, their responsibilty is
   role in investjgating physical
   less clear when the complaint is one of misusing restraints or verbaVemotional
   abuse or neglect.

   In those instances in which the complaint is referred to and investigated by the
   police , many respondents indicate the police rarely report their findings to other
   State agencies. Most State Ombudsmen and complaint coordinators have no
   means of tracking the progress of the case (e.g. , substantiation , arrest
   prosecution) except, possibly, to obtain a copy of the police investigative report.
   These respondents voiced the same concern for referrals made to the MFCU.
   Further, in those States requiring nursing home administrators to report incidents
   to the police , as well as to the coordinator, there may be no measures to ensure
   such compliance.



Stes var in their interpetons of the invesgate resPOnsibilites of State
Ombudsmen and MFCUs.

Both State Ombudsmen and MFCUs have Federal mandates to investigate abuse
complaints involving residents in nursing homes. However , States interpret those
responsibilties and perform those functions differently.

Several MFCU respondents indicate different interpretations of which abuse
complaints they are to investigate. Some investigate only those complaints involving
residents receiving Medicaid , while others investigate abuse complaints involving any
resident of a Medicaid-certifed facilty. A few MFCUs may investigate abuse
complaints regardless of Federal certifcation.

State Ombudsmen have a similar problem. Operation of ombudsmen programs are
not uniform within or among States. No Federal regulations interpreting the
investigative responsibilties of the Ombudsmen have been established by the AoA

Respondents report State Ombudsmen often lack authority over the actions of local
ombudsmen even though they certify the local ombudsmen. In many instances , it is
the ombudsman at the local level who will receive and "investigate " an abuse
complaint. Yet, the State Ombudsmen generally lack adequate direction , resources
and authority to ensure and enforce a consistent interpretation of the investigative
role.

Additionally, both Ombudsmen and MFCU respondents report they are inadequately
staffed to perform all investigations o abuse effectively. Respondents say funding
for more staff would be needed to accomplish such goals.

        mo Stes, Ste Ombuen serve as a refrral source bu do not hae
   aut to tae displina ac.
   In


   Most Ombudsmen may receive reports of abuse but must refer them to other
   agencies for action. They generally do not  investigate the cases themselves. If
   an investigation is conducted by the Ombudsmen , it ' is usually parallel to an
   investigation being done by a designated investigatory agency (e.g. , survey and
   certification). Although the Ombudsmen may substantiate complaints, they
   generally lack any sanctioning authority. They often rely on the nursing home .
   certifcation and licensing agency or other appropriate designated agency for
   administrative remedies , and locl taw enforcement or the MFCU for
   prosecution.

. Mos   respo      are unfilia wi the responsibilit of the MFCU to
   invesgate and rese coplant           of nursing home resident abus.

   Typically, respondents are not aware of the MFCU or its responsibilities for the
   investigation or resolution of abuse complaints. As a result , many MFCUs may
   not be routinely notifed of abuse complaints received by other agencies.

   The MFCUs can receive complaints directly from the reporter. At its discretion
   and if an initial review of the complaint indicates substantial potential for criminal
   prosecution , the MFCU may investigate the complaint or refer it to an
   appropriate criminal investigative (police) or prosecutive authority (local district
   attorney). If the initial review does not indicate substantial potential for criminal
   prosecution , the unit will usually refer the complaint to an appropriate State
   agency (survey and certification or professional licensure) for appropriate
   administrative action.

   Many MFCUs are not informed of complaints and incidents until after the
   complaint coordinator investigates and substantiates the complaint. Respondents
   from some States say substantiated complaints will usually be referred to local
   prosecutors rather than to the MFCU. According to respondents , by the time
   many MFCUs are notified of a substantiated complaint investigated by another
   agency, some of the evidence needed for successful prosecution may have been
    lost. Such loss of evidence may occur through an insufficient initial investigation
    conducted by an individual not adequately trained in criminal investigative
    procedures and the evidentiary requirements necessary     for successful prosecution.


    MFCU and counterpart respondents cite the following weaknesses in the abuse
    investigative functions of their States:



                  lack of coordinated investigative and resolution efforts between local
                  law enforcement and other State and Federal agencies
                  lack of public awareness to recognize and report abuse
                  inadequately trained personnel conducting investigations
                  insufficient numbers of staff to conduct investigations
                  low priority given to abuse complaints not serious in nature
                  overly stringent evidentiary requirements for prosecution
                  substantiated complaints under criminal laws ,   and
                  insuffcient enforcement of existing laws and regulations.

   In recognition of these and other weaknesses , the National Association of
   Attorneys General , through the efforts of the National Association of MFCUs
   passed a resolution in 1988 encouraging the States to adopt model legislation to
   prohibit patient and resident abuse.

Proson of subsated abuse incident is hindered by the difcult of
                     an    obtninQ the evidence reauired for proson. When
provinQ the abuse
cormed. mo
proson.
                    ins       of abus will result in staf dismiss but no crminal

Across the nation , State penalties for confirmed abuse vary widely. Many laws
governing prosecution of abuse were established for criminal assault cases. The
evidentiary requirements for criminal assault are usually much more stringent than
can be readily satisfied in instances of nursing home abuse. Many complaint
coordinators urged giving abuse issues a higher priority for investigation and
prosecution by police and local district attorneys.

In many instances , respondents said prosecution of substantiated abuse does not
occur because:



         the incidents may be perceived as minor and more easily handled
         administra tively;
         assembling the case can be     difficult;

         prosecution may not be ' a    sure thing

         the time lapse to prosecution   may lessen the chances of successful

         prosecution due to the    mental or physical frailty of the victims or witnesses;

                                       '.



          the abused individuals and witnesses may be reluctant to testify, particularly
          if the victim is the only witness or the witness may be confused as to the
          details of what actually happened; and
          patterns of abuse may not be apparent, because repeated incidents may not
          have been identifed and tracked.

Respondents say prosecution of a substantiated abuse complaint is rare. As a result
most confirmed instances result in dismissal of the involved employee. However, the
employee may be retained by the nursing home following an incident of less severe
abuse. In these instances , the employee may be placed on probation and may
undergo further training and/or counseling.


              STATE AND FEDERAL ABUSE RECORD-KEEPING

            AND OVERSIGHT ACTIVITIES NEED STRENGTHENING


There are no adeauate natonal nursina home abuse statstcs          to provide an
incidence rate or trend for nursina home abuse.

Nearly all respondents believe abuse, both mistreatment and neglect , is a problem in
nursing homes. Unlike other categories of abuse , physical abuse is generally easy to
recognize and has more consistency of definition. For this reason , we asked State
complaint coordinators and Ombudsmen for statistics related to physical abuse.
While a few States w re able to give us either the number of complaints received or
incidents reported by nursing homes for combined categories of abuse , most did not
provide numbers for physical abuse.

State complaint coordinators in 26 of the 35 States were unable to report physical
abuse statistics. According to these respondents , present record- keeping procedures
do not provide for easy extraction (barring a maIUIaI count of every complaint
received). Exlanations for a State s inabilty to provide information range from not
having any system for recording complaints to not defining nursing home physical
abuse as a specific complaint category in their record- keeping system.

National summary data is lacking due to:

         limited capacity of State information systems   to provide detailed data on
         abuse categories
         variations in the definitions and tyes of abuse covered by existing State
         and Federal reporting requirements , and
         weaknesses of State and Federal reporting and statistical analysis
         requirements regarding abuse problems occurring in institutional settings.
   Ma Stes de             ab an cole        st infrm difen.
   States vary in their reporting definitions and practices. Even if a State has an
   information system capable of providing abuse information , definitional
   differences exist which make it inappropriate to   compare States. For example:

               States vary in how they define individuals protected from institutional
               abuse. Some State laws require reporting of abuse for anyone in a
               nursing home , while others require reporting of abuse specific to the
               elderly.

               Some States define abuse categories extensively, while others may
               only have a single category for all tyes of abuse.

              Some States lump incident reports from residential care facilities and
              long term institutions together (e.g. , mental health/retardation
              institutions , boarding homes).

              Some States keep statistics on the number of complaints , while others
              keep statistics by allegation. Within each complaint , there may be
              one or more allegations. The complaint would be substantiated if just
              one of the allegations were true.

. Th Ste Ombudma s annual report to AoA has definitona problems which
  limit it us fo ansis of natnal incidence trends or the prevalenc of
  abus. The level of reportng     detl is too broad for adequately monitoring
  nursing hoe     resnt abuse problems and trends.
  State Ombudsmen are required by the OAA to collect and submit complaint data
  annually to the AoA. In fiscal year (FY) 1987 , seven States either failed to
  report or did not use the AoA Complaint Classification System. The remaining
  43 reported 62 941 complaints in nine major categories and an aggregate " other
  category. The majority of the complaints were for incidents in nursing homes.

  The nine major categories contain 136 subcategories covering 1) resident physical
  medical , and emotional care , 2) administrative problems , and 3) environmental
  issues. Of these , approximately 65 represent complaints which would most often
  fall under the broad category of abuse as defined by this study. However, the
  current and revised reporting forms being implemented require only aggregate
  information for most complaint tyes.    This weakness wil not allow for the
  reporting and analysis of complaint sub-categories (e.g. , Resident Care is the
  aggegate category; improper restraints , physical abuse , mental abuse, verbal
  abuse , neglect, etc. , are sub-categories not reported to the AoA for national
  analysis).
   Respondents also noted problems in how abuse allegations and complaints are
   recorded. A complaint may be reported in several different categories. It may
   reflect a single incident or several incidents. Respondents indicate the complaint
   with several incidents may be recorded as a single complaint , recording only the
   primary incident, or as several complaints each based on one incident.
   Therefore , while the Ombudsman report is a major indicator of the occurrence of
   nursing home abuse , it cannot be used to obtain reliable national counts of abuse
   (particularly for specific problem areas).

Man respodent failiar wi the HCFA nurs!nhome                   cert     on survey au
idented problems wi it use an applicaon.

State survey agencies monitor the performance of nursing facilties by determining
their compliance with the Federal conditions of participation. The HCFA has
oversight responsibilty for the surveys    conducted by States for Medicare/Medicaid
certifcation of nursing     facilties. Of those respondents familiar with the
Medicare/Medicaid Skilled Nursing Facility and Intermediate Care Facilty Survey
Report, which is used by State surveyo , respondents cited several inadequacies of
the HCFA and State survey processes and guides , as listed below.

         Survey deficiencies are facilty oriented. Abuse is more often an individual
         issue rather than a facilty-wide problem.
                      to'
         Because resident intervews are of short duration , surveyors may lack time
         to gain the resident s confidence and overcome his/her fear of reporting the
         abuse.

         The survey processes leave little time for extensive investigation of
         problems.

         Surveyors are not trained     investigators.

         Survey conduct varies considerably among States and Federal regions with
         respect to the intensity, focus , and quality of effort and resources invested.

         Survey guidelines are subject to varyng interpretations by the individual
         surveyors. What one cites as a deficiency, another may not report due
         extenuating circumstances.

   Re
   pr
               repo survor ofen perfrm lite or no analis of coplaint
         to coucng Fedal or Ste nursing home surveys.
   Nearly half of the respondents (47 percent) said analysis of prior nursing home
   complaints either does not occur or they were unaware of it being done prior to
   surveys. The usual reason given for this is the surveyors lack easy access to
   complaint fies or all statistics specific to the nursing home being surveyed.



                                RECOMMENDATIONS


Respondents have identifed many overlapping and , in some instances , conflcting
responsibilties of the involved local , State , and Federal entities. As a result , even in
States with established procedures , there are inconsistencies and weaknesses in the
current systems with regard to protecting nursing home residents and preventing
abuse. Based on these findings , we recommend the following:

STATE AND lOCAL RESPONSIBIUTES

   Each State should identify the various State authorities and interest groups with
   current responsibilty for reporting, resolving, and follow-up of abuse complaints.

   Each State should establish a State-wide network of responsibilties and
   supporting processes to address abuse in nursing homes. The network must have
   a single entity accountable for its operation , although functions can be delegated.
   At a minimum , the network should include the following components: reporting,
   investigating, resolving, and follow-up action on abuse complaints.

   Reportina and Investiaatina

   Procedures should be established to receive and act on complaints of suspected
   abuse in a timely manner. Processes for reporting should be easily accessible and
   well publicized. There should be a central agency designated to coordinate the
   receipt of all abuse complaints. This entity should:

          require facilty staff to report all instances of suspected abuse directly to the
          agency designated for that purpose.      Mandatory reporters should include all
          licensed or unlicensed professional and non- professional nursing home staff
          including nurses , doctors , administrators , nurses aides , orderlies
         housekeeping, kitchen staff, etc.
           There should be a mandatory orientation and ongoing training for all
           employees affected by the reporting requirement.

           The nursing home administrators should not be allowed to delay
           reporting of possible cases of abuse.in order to conduct internal
           investigations.

     prohibit retaliatory action against individuals reporting suspected incidents
     of abuse and provide anonymity when possible.

     take all necessary actions to ensure each abuse report is investigated timely,
     including:

           notifyng the local police and the MFCU (if there is one) of any
           incident or complaint of suspected abuse , and
           notifyng other appropriate State or local agencies responsible for
           supervsing nursing facilties or personnel of the complaint.

Resolution and Follow-up

     The process should:

           ensure all necessary actions to a) provide appropriate medical care , if
           necessary and b) resolve the complaint timely,
           maintain communication and coordination among all involved entities
           required for case resolution ,   and
           document the resolution of each complaint and incident.

     Each State should:

          maintain readily retrievable data about abuse incidents and
          complaints , review and identify patterns of abuse, and then take
          appropriate action when patterns are identified;
          ensure appropriate follow-up activities are performed (e.g. , reporting
          substantiated incidents involving aides or medical personnel to either
          the aide registry or the State licensure authorities);
          promote public and facility awareness of abuse and reporting
          requirem nts;
          maintain retrievable statistical data for State management and Federal
          review; and
          report all abuse convictions to State licensure authorities and to the
          HHS/OIG for possible Federal sanctions against the individual or
          facilty.
Administration

Regardless of which entities are utilzed in performing necessary roles in the
system , ultimate responsibilty for communication and coordination among all
State and Federal roles must rest with a single clearly- identifiable entity. That
entity should:



      define individual roles and specify responsibilties of entities involved in the
      receipt , resolution , and necessary follow-up of abuse;
      establish wrtten protocols for conducting abuse investigations;
      ensure qualified staff perform each function of the complaint resolution
      process; and
      require reporting of all local level convictions   to the   designated central unit.

States should be permitted flexibilty in deciding how best to establish such a
system of agency roles , responsibilties and implementing procedures. Possible
agencies which might have roles in the system include:

      MFCUs
      adult protective servces agencies

      local police
      local area aging agencies
      State survey and certification agencies
      State Ombudsmen , and/or
      new State and local agencies created for this purpose.

States should also consider the need to enact new legislation or       strengthen
existing laws to implement this process , and ensure appropriate resources for its
operation. Wherever possible, formal agreements among involved State agencies
and between State and Federal agencies should be developed which specify their
respective responsibilties.

States should further plan ,
                          develop, and implement public education programs to
inform the public about what constitutes abuse and what actions should be taken
if abuse is suspected.
FEDERA RESPONSIBIUTES

  The HCFA,as part of its conditions of participation for hospitals and nursing
  homes , should:

       require all nursing home staff and hospital medical personnel to report all
       suspected incidents of nursing , home resident abuse to the nursing home
       administrator or local law enforcement , and to the central agency assigned
       responsibilty for resolution of abuse complaints;

       require nursing homes to report all abuse incidents to local law
       enforcement, the central agency assigned responsibilty for resolution of
       abuse complaints , and to the State survey and certification agency;

       require nursing homes to maintain reports of suspected incidents of abuse
       and the actions taken by the nursing home;

       require administrators to conduct analysis of all incident reports to
       determine implications and appropriate actions;

       require nursing homes to specify, as part of the nursing home resident
       plan of care ,
                    a plan to prevent abuse of a resident who is either mentally
       or physically unable to protect him/herself; and

       require nursing homes to provide ongoing training, monitoring, and
       counseling of employees suspected of abusing residents.

  The AoA should expand and strengthen its efforts to:

       issue periodic public reports concerning best practices for preventing and
       dealing with resident abuse;



       promote public awareness and education concerning abuse occurring in
       nursing homes; and

       promote and ensure more widespread use of volunteer Ombudsmen in all
       nursing homes.

  The HCF A and the AoA should jointly develop common definitions and

  categories of abuse for all State and Federal reporting purposes.

ADDmONA ACTION BY THE OIG

The OIG will , through its oversight responsibilty, encourage the MFCUs to:

         promptly evaluate reported incidents and complaints of suspected abuse
         and take timely, definitive action , with decisions not to prosecute reported
         to the designated State agency.



         foster closer relationships with all local prosecutors involved in abuse cases
         to:

         a) provide technical assistance and expertise in prosecuting abuse, and
         b) ensure MFCU awareness of abuse convictions by local prosecutors.

         report abuse convictions   to the OIG for possible   sanctions.
                                                          , "




                                    DEPARTMENTAL COMMENTS



Comments were received from th'e Assistant Secret ry for Planning and Evaluation
the Offce of Human Development Servces , the Administration on Aging, and the
Health Care Financing Administration. (See appendix D for the full texts.

Assistat             Sere for Planning and Evauation (ASPE)
The ASPE agreed with the finding!; and recommendations of the report. More
specifically, it "supports the OIG' s recommendations for improved training of nurses
aides and orderlies about how to cope with stressful situations and resident behaviors
without resorting to abuse , improved abuse complaint invt?stigation and resolution as
part of State enforcement of Federal nursing home regulations , and improved
systems for abuse reporting.

Ofce of Human Deelopment Servces (OHDS)

The OHDS concurred with the report.

Administrtion            on   Aging (AoA

The AoA agreed generally with the findings and recommendations of the report.
However, while concurring with the " observation that there are no data which can be
used to provide an incidence rate or trend regarding nursing home abuse," the AoA
states it is beyond their control to overcome the impediments to the collection of
such data. Thus , they requested the recommendation for the AoA to issue periodic
public reports on abuse trends be revised to read to issue best practices for
preventing and dealing with resident abuse.

We recognize the concern expressed by the AoA and have            modifd this
recommendatin. However, we contiue            to   believe such report will be possible if
consistent defmitns are developed.

Hea             Ca     Financing Administrtion (HCFA)


While HCF A generally agreed with the report , it did have concerns with the primary
data gathering technique utilzed , that is , an opinion survey rather than a scientifically
controlled review, which resulted in such opinion data " presented as fact." The
HCFA also felt it would be advisable to include more information about the
intervews and information gathering processes used in the study.
. .




       Additnal infonnatin      has been provided in the Scope and Methodology sectin of the
       report. Although evaluatin stuies do not produce absolutely certain infonnatin, they
       can provide relatively objective data. As the report inicated, there was litle relevant
       statistial or applicable published research data concerning abuse in a
                                                                              nursing home.

       We started with an assumption that inividuals who routinely receive complaints of
       abuse, survey for indicators of abuse, investigate abuse, or resolve abuse incidents are
       knowledgeable sources.   The   survey method was designed to provide descriptive
      infonnatin of exting processes using statements of opinion from a representative
      population. Finings and recommendations related to the survey (to identify whether
       abuse was a problem, to what extent,   etc.) were a result of both content and qualitative
       analyses of the survey responses , available State statistics and legilatin/regulatin, and
       available research. We recognize the infonnation provided by the respondents is
      signifzcant only in the way it is regarded by the researcher or the readers.   There   is no
      absolute interpretatin of the infonnatin provided.


      Generally, HCFA agreed with the recommendations of the report. The HCFA
      believes their implementation of the applicable statutory requirements of the
      Omnibus Reconciliation Act (OBRA) of 1989 and the Social Security Act will fulfil
      most of the recommendations of the report. In meeting a portion of the legislative
      requirements , HCF A has revised the conditions of participation for nursing homes
      (effective October 1 , 1990). The HCF A believes the revised requirements will
      contain many of the safeguards recomm6nded by the OIG.

      The HCFA indicates many of the recommendations will be met by the new regulatins.
      We agree that draft regulations issued thus far represent a substantial improvement over
      regulations now in effect. However, some of these regulations are still in the public
      review and comment stage and may change. Even more importantly, the regulatins
      defer to State law on the critical issues of complaint reporting, investigating, and follow-
      up. Hence, their impact will depend greatly on how aggessively the States move on
      these problems. Similarly, nursing homes will have to comply with the State law. We
      wil, therefore, defer any assessment of whether our recommendatins have been
      implemented unti the new regulatory requirements are in place and States and nursing
      homes have made at least initil efforts to implement them.

      The HCFA also took exception to aspects of some of the recommendations:

      The HCF A did not agree with the recommendation for hospital medical personnel to
      report suspected incidents of abuse. The agency is unaware of a significant abuse
      problem in hospitals and do not believe there is a need to revise the conditions of
      participation for hospitals since they require hospitals to follow State law. Further
      HCFA does not believe the OIG has demonstrated a significant problem with respect
      to hospitals.

We agree that the inpectin did  not inicate abuse occurrg in the hospital settg; this
was not the intent of the stuy.However, the inspection findings did inicate that
emergency room physicians may rarely or never report abuse observed or treated involving
a nursing home resident. For clarifiatin of the recommendation, we have modifed the
recommendatin to require hospital medical personnel to report suspected abuse
involving a nuring home resident.

The HCF A disagrees with the recommended requirement for nursing homes
report " all abuse incidents to local law enforcement , the central agency assigned
responsibilty for resolution of abuse complaints , and to the State Survey and
Certifcation Agency. " The agency believes the new requirements to report to the
nursing home administrator or outside official in accordance with State law will be
sufficient. Further, HCF A believes minor abuse incidents can be effectively handled
by the administrator without the need for involvement of law enforcement personnel.

We agree that reportg alleged abuse to the administrator and to an outside entity in
conjunctin with State law (which we believe should be a designated central agency)
may be suffcient in most cases. However, we   disagree that there is no need for

involvement of law enforcement personnel. We understand HCFA' s reasons for minor
cases not to be reported to the police: Ynfortunately, the distinction between minor
abuse and major abuse is subjective and cannot always be left to the nursing home
administrator to determine. We have noted that criminal investigatins should be
conducted by trained investigators who can make such distinctions. Nevertheless, we
have modified the recommendation to require reportng to either the nursing home
administrator or to law enforcement offials as well as to the central agency responsible
for abuse.



The HCFA, finally, disagrees with the recommendation for nursing homes to provide
ongoing monitoring and counseling of employees suspected of abusing residents
stating counseling could be inadequate and employees must be removed from the job
if expectations are not met (as to behavior).

We concur with HCFA that employees should be expected to conform to prescribed
behavioral requirements. However, if staff suspected of abuse are retained, additinal
training, counseling, and monitoring should be required.
APPENDICES

                                                           APPENDIX A



                  NATIONAL ORGANIZATION RESPONDENTS


American Association of Homes for .the Aging

1129 20th Street , NW

Washington , D. C. 20036

American Association of Retired Persons - Central Office
Criminal Justice Servces

1909 K Street , NW

Washington , D. C. 20049


American Health Care Association
1201 L Street , NW
Washington , D. C. 20005

American Medical Directors Associatlbn
12100 Blue Paper Way
Columbia , Maryland 21044

National Aging Resource Center on Elder Abuse
Research and Demotistration Department
810 First Street , NE
Washington , D. C. 2002- 4205

National Association of Attorneys General
444 N. Capitol Street, Suite 403
Washington , D. C. 20001

National Association of Chiefs of Police
1100 NE 125 Street
Miami , Florida 33161

National Association of State Units on Aging
2033 K Street , NW, Suite 304
Washington , DC  200
National Citizen s Coalition for Nursing Home Reform
1424 16th Street, NW
Washington, D. C. 20036

National Sheriffs Association

1450 Duke Street
Alexandria , Virginia 22150

Police Executive Research Forum
2300 M Street, NW, Suite 910
Washington , D. C. 20037

Police Foundation
1001 22nd Street , NW Suite 200
Washington , D. C. 20037

Rehabiltation Care Consultants ,   Inc.


6401 Odara Road
Madison , Wisconsin 53719
                                                                                      APPENDIX B



         STATE ELDERLY OR NURSING HOME LAWS AND REGULATIONS


The following is a compilation of laws 
nd regulations provided by respondents and

found in published abuse literature. The laws and regulations referenced are a

partial list in some States due to incomplete respondent reporting and recent

legislation or amendments.


Alabama

Long Term Residential Health Care Recipient Ombudsman Act , 1985.

Adult Protective Servce Act of 1976 , (Acts 1977 , No. 780 , p. 1340 . Section 1).


Alaska

Protection of the Elderly, Chapter 24, Section 47. 24. 010 , 1983.
Offce of Long- term Care Ombudsman , Chapter 24 , Section 44. 21.

Arizona

Adult Protective Servce Legislation, ARS 46- 451, 452 , 453, 454 , and ARS 14- 5310. 01. (ARS 46- 453
and 454 enacted 1984; remainder, 1980)


Arkansas

Arkansas Statue 59- 1301 , Adult Abuse Statute, 1977 , amended 1981.

California

Assembly Bil 1805 (Felando) Chapter 1184 , Statutes of 1982.

Senate Bil 1210 (Carpnter) Chapter 1273 , Statutes of 1983.

AB 238 (Papan) Chapter 1164,               Statutes of 1985.

AB 749, Chapter 25 , Statutes of 1986 ,             effective 1987.



Colorado

Disabled Adult Protective Servces ,             1983.

Licensure Standards ,         1982, amendments 1986 , 1988.


Connecticut

CGS 17- 135      a-m, 1977.

Protection of the Elderly Act ,            1978.

Delaware

Abus, Neglec or Mistreatment of Residents in Medical or Long- term Care Facilties , Senate Bil
463 , 198.
Adult Protecive Servce Act , DE Coe Title 31 , Chapter 39, 1982.

District of Columbia

Adult Protective Servce Act of 1984, DC Law 5- 158.

Rorida

Adult Protecive Servce Act, Setion 415. 101- 113 ,
                                                 Florida Statutes , 1987.
Nursing Home Residents Rights, Setion 40. 022 , Florida Statutes.
Long- term Care Ombudsman Act , Setion 40.301 , Florida Statutes.

Georl!ia

Long- term Care Facility Resident Abuse Reporting Act of 1980, O.           , 31­    80.
Bil of Rights for Residents of Long- term   Care Facilities of 1981, O.       , 3­   100.
Disabled Adults Protecion Act of 1981, O.    A, 30­
Domestic Violence Act of 1981, O.    A, 19- 13- 1 et seq.

Hawaii

Hawaii Revi   Statutes , Chapter 349C, Elder Abuse or Neglect , 1981.
Idaho

  B. 1267, amended , Offce of Ombudsman.
Elderly Abuse, Exloitation , Neglect , and Abandonment Reporting Act, Idaho Code , Chapter 52

Setion 39-5201 - 39- 5212, 1982.

Idaho Coe, Chapter 28, Setions 2-734; 39-3301       - 39-3309 , amendment 1983; 15- 101-502.


Ilinois

Nursing Home Care Reform Act of 1979 , PA 81-223, 1980 , amended 1981 et al; PA 85-940,        1988.

Life Space Care Facilities Act , Public Act 82- 547 , 1982, amended PA 82-783 , 1982.

The Domestic Violence Act.

Elder Abus Demonstration Act, amended 1984 by SB799 , SB801.

Abus and Neglected Long- term      Care Facilty Residents Reporting Act ,   P A 82- 120 , 1982, amended

PA 83- 1530, 1985; PA 84-798,   1986; 1988.



Indiana

Indiana Coe, PL 41- , Dept. of Human Servce, 4-28- 1 through 4-28-            3, 1987.

Indiana Coe 4-27- 1 et se. , Adult Protective Servce , 1985.

Indiana Health Facilities Rules, 410 lAC 16. , 1984.

Indiana Coe 4-285- 1 et se., APS, 1987 (pL 42- 1987).

Iowa

Iowa Coe, Chapter 235B , Adult Abuse Servce, 1983.

Kansas

Protection from Abus Act 1979.
Reporting Abus or Neglec of Certain       P   rsons, KSA Chapter 39, Article 14 , 1980, amended 1985.
Abuse Care Homes - Unlawfl Acts, 1961.


Kentuckv


Protection of Adults Act , KRS 209 , 1976, 1978, 1980.

Domestic Violence and Abuse Act, KRS Chapter 403, 715-785,           1984.



Louisiana


Louisiana Revise Statutes, Title 40, Act 687 of 1978.

Louisiana Revied Statutes, Title 14, Acts 519 and 551 of 1982 (Original APS Law), amended 1983

1985, 1987.

Louisiana Revise Statutes, Title 14, Act 850, 1981, amended 1987.

Maine

Adult Protecive Servce Act , 22 M. R.S. , Setion 3470-3487 , 1981.
Domestic Violence Act , 19 M. R.S. A, Setion 761 , 1979 , amended 1983.
Act to Establish the Main Probate Coe, 18A M. R.S. , 1981.

Marvland

Abuse or Neglect of Vulnerable Adults ,   Article -Z7   , Setion 35B, 1988 draft.

Health General Article, Title 19, amended 1983.

Adult Protecive Servce Act, Chapter 148, enacted 1977, amended 1985.


Massachusetts

MA Patient Abus Statute (MGL Chapter          111- 72 F-L), 1980.

Massachusetts' General Laws 19A S. 14- 26 or Acts of 1982, Chapter 60 ,         1982.

SB 2206, Chapter 83-544,   1983.



Michie:an

Act Number 519, Public Acts of 1982, 1983.

MGL, Chapter 265 , Seion 13A, Assault & Battery.

Older Michigans Act, HB 4123, 1987.

Adult Protecive Servce , SB 223, 1982.

Michigan Health Coe Act 36, Public Acts of 1978 , Section 20201.

Minnesta
Vulnerable Adults Act, Minnesota Statutes 626.557, Reporting of Maltreatment of        Vulnerable Adults

enacted in 198, amended 1981, 1982, 1983 , and 1985.

HF 36,     Patient Bil of Rights ,   Chapter 248 ,   1983.



Missisippi

Adult Protective Servce Act of 1982.
Protection from Domestic Abuse Law, 1981.
Mississippi Vulnerable Adults Act of 1986.

Missouri

Protective Servce for Adults Act , RSMO 66. 251 , 1980 (Supp. 1981) et seq.

Omnibus Nursing Home Act , RSMO 198. 001- 198. 186, amended 1979 , 1987.

Institutional Servce Manual, Setion VII , 1988.

Institutional Servce Manual, Setion VII, 1988.

Division of Aging, 13 CSRI5.


Montana

Montana Elder Abuse Prevention Act , 1983 , amended 1985 (Title 53 ,      Chapter 5), revised 1987 to
make a secnd offense of elder abuse a felony.

Nebraska

The Offense Involving the Family Relation Law , 1979.

APS Act, 1988 (LB 463); Complaints (LB 235), 1983; Nurse        Assistant (LB 273), 1983 ,   (LB416), 1984

(LB 921), 1986.


Nevada

The Abuse , Neglect ,   Exloitation of Older Persons Act , NRS 200.5091 et seq. , 1981 , amended 1983
1985 , 1987.

New Hampshire

Protecive Servce to Adults Law, RSA 161- , 1977 , latest revision 1988.
Patient' s Bil of Rights, RSA 151:21; Ombudsman Statute , RSA 126­

New Jersev

The Prevention of Domestic Violence Act, NJSA 2C:25- 1 et seq. , 1982.

Mandatory Reporting of Adult Abuse to the State Ombudsman Act, NJSA 52:270- 2,               PL 1983,

Chapter 43.

Enabling Legislation for the Offce      of the Ombudsman for the Institutionalized Elderly, NJSA

52:270- 1 to 16 , Chapter 239, 1977.

Nursing Home Patients Bil of Rights, NJSA 30:13 to 11 , PL 1976, Chapter 120 , 1976.

Bording Home Residents Bil of Rights , NJSA 55:13 B- 1, et aI. , PL 1979, Chapter 500.

New Mexico.

Adult Protecive Servce Act , 1982.

New York

Patient Abus Reporting Law (public Health Law, Section 283-d), 1977 , revied 1980).
Adult Protective Servce Law, Article 9- B of the State Social Servce Law, includes section 473, 473­
 , and 473-b of the Soial Servce       Law. Setion 473, 1975, amended in 1979; Section 473-a , 1981;
and Setion 473-    , 1984.
Health Facility memoranda 80- 53     and 80-   , Patient Abuse Reporting.

North Carolina



Protection of the Abused , Neglected , or Exloited Disabled Adult Act ,     1973.

SB 18, Chapter 83-88, 1983.

SB 13, Chapter 83- 143, 1983.


North Dakota


Bil of Rights for Health Care Facilty Residents ,
                                              Chapter 50- 10.


       , Chapter 576.
Long-Term Care Ombudsmen , Chapter 50- 10. , SL 1983, Chapter 524; SL 1985 , Chapter 524; SL

1987

Ohio

              Health- Safety- Morals 3721. 10- , H60 , 1979; H694, 1981.

Patient Rights ,


1986.
Protective Servce for Adults Law, Section 5101.60- 71 and 5101.99 , 1981. Amended Section 5105. 61,


Crimes Procures , Re         rting, 2921.22, H28, 1980.

Oklahoma

Nursing Home Care Act, 1980.

Protecive Servce for the Elderly and Incapacitated Adults, enacted 1977 , amended 1985, 1986.


Oregon

Nursing Home Patient Bil of Rights , ORS 441.6 et aI , 1979, amended 1981 , 1983, 1985 , 1987.

Reporting of Abuse of Elderly Persons Act , ORS 410. 6 et aI, 1981, amended 1983 , 1987.

Patient Abuse Act , 1979.

Protective Servce , ORS Chapter 411, 1975 , amended 1980, 1981.

Assault and Related Offenses , Chapter 163 , 1971 , amended 1975 , 1977.

Intimidation, Chapter 166, 1981 , amended 1983.

Criminal Mistreatment , Chapter 163, 1973 , amended 1981.


Pennsylvania

Older Adults Protective Servce Act, 1979,      1987.
Protection from Abus Act, PL 109, 1976.
;:




      Rhode Island

      An Act Relating to Elderly Persns , PL 009- 1981 ,   1982.

      Domestic Violence Law, 198.

      Felony Act, Seion 11-     , 198, amended PL 1981 , PL 1988.

      Department of Elderly Afairs Legislation , Chapter 66, 66. 1, and 66. , amended 1985.

      Abus in Health Care Facilities, Health and Safety, Chapter 17. , PL 1987 , PL 1988.

      Regitration of Nursing Asistants, Health and   Safety, Chapter 17. 9, PL 1987 , PL 1988.


      South Carolina

      Protecive Servce for Developmentally Disabled and Senile Persons ,       1974.

      Client- Patient rrotection Act (CPPA), 1979, amended 1984 , 1986.


      South Dakota


     SDCL 28- , Public Welfare and Assistance, LS 1937 , Chapter 220 , Section 1.

     SDCL 28- 8-23 , Title XX Soal Servce Program, SL 1975 , Chapter 188, 1975.

     An Act to Prohibit Abuse of Disabled Adults, SB 292 , 1986.


     Tennesse


     Protective Servce for Elderly Persons Act, 1974 , repealed 1980.

     Adult Protection Act , 1978 , amended 1980, 1984, 1986.

     Texas

     Chapter 48 - Title 2 - Human Resource Coe, passed as elderly protective law in 1981 and amended
     to include disbled adults in 1983.

     Utah

     Adult Protective Servce Act , 1977, amended 1983.

     Vermont


                        1986   , 1987.

     Report of Abuse, Neglec and Exloitation of Elderly and Disabled Adults , Title 18, Chapter 22
     amended 1983 , 1985 ,
     Abuse Prevention Law, Domestic Violence Law,     Title 15 ,   Chapter 21 , 1979, amended 1981.


     Vir2inia

     Public Servce Laws , Chapter 1, Setion 63. 55. 1   through 63.     55. 7, and Chapter 24 , Section 2. 373
     through 2. 373.

     Washinf!on

     RCW 70. 124 , Nursing Home Reporting Law, 1983.
     RCW 74. 34, Abuse of Vulnerable Adults Act , 1984.
West Virginia

Soal Servce for Adults ,   Chapter 9, Aricle 6 , 1981, amended 1984.
Prevention of Domestic Violence, Chapter 48 , Article 2A

Wisconsin

The 1983 Wisnsin Act 398,     1984.

                                           1975 , amended 1977 , 1979 , 1981 , 1985.

Crimes and Boily Serity, Setion 940. 28'-29 ,
Administration Coe HSS 132.43 , 1982; HSS 132. , 1982, amended 1987; HSS 132. 6, 1982, amended

1983, 1987.



Wvomine:

Adult Protecive Servce Act , 35- 20- 101   to 35- 20- 109 , 1981.
                       ...                  '. .
                                          ...  '
                                                                                                                   APPENDIX C



                       DEGREE OF NURSING HOME ABUSE REPORTING



 PERCENT OF                                                                                                               Degree of
RESPONDENTS
                                                                                                                          Reporting
 100%                                                                                                              100%

 90%                                                                                                               90%
                                                                                                                            AL WAYS
 80%                                                                                                               80%
 70%                                                                    66%,                                       70%

 60%                                                                                                               60%     USUALL Y

 50%            4 7%                                                                                               50%
                       37%               400/
 40%                               36% co;;;;                                              38%        37%          40%       1//:://1
 30%	                                                                                                              30% SOMETI
 20%	                                                                                                              20%
                             13%

  10%	                                                                                                             10%
                                                                                                                             RAREL Y



                 ALL
         REPORTERS
                             NURSING HOME
                                   STAFF
                                                             ATTENDING
                                                             PHYSICIANS
                                                                                         EMERGENCY
                                                                                           ROOM
                                                                                         PHYSICIANS                        Sometimes to
                                                                                                            I I

                                                                                                                           Rarely Report



                                                SPECIFIC REPORTERS



Graph Interpretation:	              Respondents were asked four questions related to
                                    reporting. First, how often is abuse reported in general
                                    by any possible reporter (All reporters). Second, how
                                    often is abuse reported by nursing home staff as 


                                    subgroup of all reporters. Thirdly, how often is abuse
                                    reported by attending physicians. And finally, how often
                                    is abuse reported by ER physicians.

                                    As      an example, for nursing home staff: 	                            13    percent of
                                    respondents believe staff always report abuse, 36%
                                    believe staff usually report abuse, and so on.
                                                                      APPENDIX D



                         DEPARTMENTAL COMMENTS


Comments on the draft reports were' received from four Department of Health and
Human Servces entities - the Assistant Secretary for Planning and Evaluation, the
Health Care Financing Administration , the Offce of Human Development Servces
and the Administration on Aging. The full texts of their comments are attached.




                                   '111
                                          &.

                   DEPARTMENT OF HEALTH        HUMAN SERVICES	             OHice of the Secretary


'''''41'	                                                                  Washington ,   D. C.   20




            MEMORADUM             DEC 2 9 1989


            TO:	         Richard Kusserow
                         Inspector General

            FROM:	       Arnold R.
                         Acting Ass
                                      Qns             'ta   for Planning and Evaluation
            SUBJECT:     OIG Draft Reports: (1) "Re ident Abuse in Nursing
                         Homes : Respondent Perceptions of Issues      " and (2)
                          Resident Abuse in Nursing Homes : Resolving Physical
                         Abuse Complaints"

            I commend the OIG staff for producing two excellent reports

            recommending strategies for dealing with             it.
            documenting the problem of resident abuse in nursing homes and
                                                            OASPE supports the
            orG' s recommendations for improved training of nurses aides and
            orderlies about how to cope with stressful situations and
            resident b haviors without. resorting to abuse , improved abuse
            complaint investigation and resolution as part of State
            enforcement of Federal nursing home regulations , and improved
            systems for abuse reporting.

            In my view , these two reports merit the widest possible

            dissemination among Federal and state agencies concerned with

            nursing home regulation as well as among the nursing home

            industry and consumer groups.

.-.             .--__.__.
                                                                                             Health Care

                DEPARTME:'T OF HEALTH &. HUMAN SERVICES                                      . Financing Administration

                                  0- ---.-----­


      "10                                                                                    Memorandum
      Date
                                                          If
      From


      Subject     (1) Re Rert:
                  OIG Drft

                  (2) :Rlvin Peon
                                Ab
                                  Ab
                                          lbysica
                                                    Reident      in Nuin Ha:
                                                          of Iss-a-Q6-SS-00360,
                                                                        Calai-a-Q6-SS-000361
                  '!e    Inrth
                  Office of


                        ar rerr to yo re for cc on th tw sujec
                         Fir, we digr with yo st methodolog, pacuarly
                           We
                  rert.
                  with re        Rerr Peion of Iss st. Hcer,
                  genly agrto with
                  Oc    cotion
                              the

                  to aa:lis the
                  cu                     ches.     re
                                       re.,.,.,.rtions, ar mu ha aldy be done
                                                     th

                                                         stes we do urer the
                                  of pacipation, whch will be in effec until
                                  1, -1990. On tht date
                                                                               'l
                                                                         reis th re,re     whch cotain         may
                  of   th safeg                    re",,                                   wil go
                  effec. We do oo beieve it
                                                                        by OIG in
                                                                        \od   be awrcriate to DB adtiona
                  d1es at th                ti.
                                                  be adisle to inud mre ino:ction abt
                  app
                          We beieve it
                  the iniew               ar wod                      us inrather
                                                    prc wa an opinon suey,
                                             ino:rtion gatherin p
                                               gatherin
                                                                            th
                                                                                  th                    st.
                            to prc th rets fou; i. e., an ar
                                  the data
                  scientificaly
                  '!  te                  colled



                  officials wh inesgate ab th
                                                        we prete as fact.
                                                               reiew.



                                                      prclem, whe thos
                                                                            Yet the data


                  reretin   nuin   ba  quon    th  seiou of th fins.
                                                 it is a


                      CX          cc
                                on th spific                ar attd1. Plea
                  advis us whth yoo agr with an poition at yo ealies
                                                                           :rtion
                  COenen.
                  Attd1
               O:ts of th Heth Care Financing Mnstration
                  on eIG Draft Audit R
                                                          (lCA)
                                               Abe in Nursing
                Ha: Resent          Per ion of Issues--(Qa-06- 88-00360)
                                            rt on Resident



       Reccmation No.       la

       HCA shod reqire as part
       ongoing traig cocerng     th             traing regations,
                                     of its nurse aide
                                    aging procs an
       and avoid corontational situation.
                                                                 rrsr ha shod
                                                            to cope with
                                                  E\rtr, th nursing
       be reqired to    dcxt staff traig an
                                    prores              unerstaing of ale       and
       reporting resibilities an                       for ale incidents.
       HCA   O:ts
       We agree withths recation an                          actively workig to
       imlemt it. Seion
                                                have   be

                                  an           of th Soial Serity
                            Seta
                        reqire th
                                 1819 (f) (2)
                                    to esish reation for state
                                                  1919 (f) (2)

       nurse aide traing an CC evaluation procm. Seion
       Act (the Ac)
                    th 0m aJge Recciliation .A of 1989 (CE
       6901(b) (2) of
       reqires tht th Sereta issue proped regation on                           89)
                                                      nue aide
       traing an     catecy evaluation  procm with
       Secion 6901 (b) (3) of OB 89 m:ifier
                                                           enctt.90 days of
                                            th OJria.un for th traig
       include "baic nursingski,
       heath an social service ne,person
                                                               rrta
                                             cae ski, rection of
                                      ca of cotively imred reidents,
       baic restorative service, an residents' rights. l:ev tht
       imlemtation of the sttutory alialun reqrerts wil fufil
                                                                 .. we

       eIG' recation. H:A is o.tly workig to issue th proed
       rues. Althgh we caot be cert of th preise cotet of th fin
       rues, we ca assue ycu tht th wil provide for procm tht
       encorage th be :fsible ca           for residents.
III
       Recation No. 1b
Iii
       lCA shod reqire, as pa of th a:sion
       resident, nuing     ha                               rerats
                                                              for a ne
                              to provide gudance to reidents corng th
       difference in living in a nuing ha enviramt, J:sible probler
       they may encater an ways to dea with such probler.

       H:A   O:ts
       We believe th recation                 Feeral reation at
                                      is addresed in                                  42
                            effecive O=ber 1, 1990. Thi proision
       er 483. 10 which are to be
       reqires tht   residents be notified of    thir
                                                  rights          an service.
       Recdation No. Ic
       HCA shod   reqire, as pa of its coition of participation for
       nursing ha,   stff resible for survising or traing dire
       staff to acqire skil necsar to effecively train an survisecare
       paraprofessional and nonprofessioo stff.

: I

Page 2


H:A   o:ts
               recllenation an have be acively p.rsing ths
We agree with th
en.          th nue aide traing an CGtecy
      As part of
regation rrtioo
                                                             evaluation progran
                        in la   , th Seretary is reqired to esablish
regation for th                                 of nue aide traing
and   c:tecy evaluation progCl. Whe we
cotent of th fin rues, thre wil be
                                              cat
                      qualfication of intructrs

                                             mi qualification
                                                   predict th preise
                                                              for the
intructrs. Alo, 42 em 483. 30            tht         ITt have
sufficient nuing
or maintain
                   stf                indicates
                       to provide nursing an
                                                      facilities "
                                                           attain
                                                      relate service to
              th high practicale physica, meta, an pschocial
well- being of each resident as    deterr
                                       by reident assessrt plan an
individual cae plan. II This wod include th survisory nursing staff
having th necsar skil to supervise direc cae staf in a maer
consistent with    reident rights, inluding th    right to be free fran
abe .
Reccmation No.

H:A shcd      coct fur  research cocerng long term cae fXlicies
which prarte stff stility an pro,ide for adeqate stff-patient
ratios necsar to cctrol stress an abe.
H:A   O:ts
we beieve tht we
enring tht
metioned in
                     hae alreay develop an approriate
                   rese
              facilities have adeqate an appropriate staff.
             oor          to R    t:lIlen
                                     ation lc, KFA wil reqre
                                                              IT       tht
                                                                          for

facilities have    suficient staff to proide for
                                               th nees of
residents, hoer,    it is clea tht increing stf-reident ratios
alone wil
facilities
           not cotrol abe. Th ootcoriente
           ma                                             rerart
                                                          gives
                  flexibility in determg. th ways th wil proide
for staff staility an ene tht th            nees an     rights of residents are
rrt. We alo    note tht any furtr       research in   ths area wod reqre
additional fuing.
                   CCts  of th                    Mnistration (H:A)
                                          Heth Care FinC
                   on th    OIG Draft         rt - Resident e in Nursing Ha:
                     Resolving Phyi Abe Oalaints--(QA- 06- 88- 00361)

       OIG   recs
       hospitals an nursing
                            tht H:A, as part of its
                                        ba, shod:        coition of participation for
       Recation No.

       Reqire al nursing ha stf an hospita rre:Uca personel to report

       al sued
       loc         incidents of abe to th nursing ha adrator
            law enorcet an to th cetral agcy assigned reibility
       for resolution of         ahe CClaits.
       H:A CCts
       We do not agree entirely with           ths r
                                           eccullen ation. We        wil rere,
       effecive O:ber                                      ha), tht al
                         1, 1990, at 42 c: 483. 13 (for nursing
       aleged ahe be reJ;rt to th nuing ha adrator or othr
       official in accrdan with state law. H:A hoita coition
       participation an th Joint O:sion on Acreditation of Hetbre
       Organzation      starsdo not reqire reprting .of ahe. Hcer, the
       hospita coition of participation do reqre ththoitain
       state law. We ar not awe of a signficat abe problem
                                                              follCM
                                                                              hoitas
       an do not beieve we              neOIGtoharevise cu coition of. paicipation. We
       re
       do not beieve tht th

        e:CCIlIl
                   to hai
                   ation No.
                             ta.                   dertrate a signicat problem with


       enorcat, thha   to reprt al ahe inidents to loc law
       Reqire nursing
, I

I.i                cetral ag assigned reibilty for resolution of
       abe calaits an to th state SUey an Certification Ag.
       H:A CCts

                                        wil reqire tht al alegedAg,
                             fuy with th    recation.          effecive
i jl
       We do not agree
       ccber    1, 1990, we
       report to th                                               ince
                                                                   of ahe
                             nuing ha adrator or outside official in
       accrdance with                    th by th adrator witht
                             state law. We beieve
       abe incidents ca be effecively haed         is suficient an tht mior
       the nee for invol vert of law enorcat personel.
       Recation No.

       Reqire nursing
       an the
                             ha to th
                   action taen by
                                   matain report of
                                      nuing ha.             su       inidents of ahe

       H:A CCts
       We agree and beieve thtth DS regation, which reire tht nuing
       har  coct   investigation of aleged abe, matain
       invesigation, an tae
                                                                      evidence of
                                           correcive action wh abe is verified, wil
       satisfy ths     reation.
Page 2


Recation No. 4
Reqire aCstrators to coct anysis of al incident reprt
determe imlication an appropriate acion.
lCA   O:ts
We agree an beieve tht     th new regation cover th          issue.
Recation No.

Reqre nursing    ha to spify,ahe
                              as pa of th nursing ha residents
plan of care, a plan to prevent  of                eithr rrtaly
                                          a reident who is
or phsicay unle to prote hiherself.
HCA   O:ts
       an believe tht th new             cor ths issue. The
regation at 42 CE 483. 20 proidereation
We agree
                                  for a CCrehive assessrt an
developt of a    plan of care for every resident.   Th
                                                    plan        assessrt an
plan of care shwd include
                        ahe, ifspial
                            any        resident nees, inuding          spific
steps for prevention of         nasar.
Recation No.


anloyee
HCA
        su
Reqre nuing

      O:ts
                 haof ahing residents.rrtoring an caeling

                      to proide ongoing




We disagree with
we do not
cotine
           beieve
                 ththt person
nut be appropriate or
                                   suraed
                       t:Ulenation. Coeling cad be ineqate,
                                     of ahe shwd be alCM to
                              whe being caeled. Their bevior
          to work with residents
                       th nu be              fran th   job   if extion
                                                                           an


are not net.
Oter Recations
HCA agree with   th recation   for state an       loc re5nsibili ties
resolution an follCMp tht reqres each state to     matain        retrievable
data for lCA.

In addition, H:A alo   agr with thca
th Adtration on Aging develop
                                   joint !      ation tht lCA and

                                                  lIlIend
                                       defintion an categories of
ahe for al state an Feeral reprting p.es.              We   wil work
ths en.

..

     ".wee,..
                                                                    Office of
                   DEPARTMENT OF HEALTH &. HUMAN SERVICES	          Human Development ServICeS


                                                                    A,;sistant Secretary
                                                                    Wasbinaton DC 20201


                            DEC 22 1989



                TO:	        Richard P. Kusserow
                            Inspector General

                FROM:       Assistant Secretary
                              for Human Development Services

                SUBJECT:	   Draft Reports on (1) "Resident Abuse in Nursing Homes:
                            Respondent Perceptions of Issues " OAI-06-88-00360 and
                            (2) "Resident Abuse in Nursing Homes : Resolving

                            Physical Abuse Complaints, " OAI-06-88-00361




                Thank you for the opportunity to review the draft reports on

                Resident Abuse in Nursing H mes. We -concur with the draft

                reports.
                If you have any questions, please contact Deborah Bass at

                245-3176.



                                                      J:t
+"                                    &.
     "V"" '
                                           HUMAN SERVICES       OffiO of the Secretary

               DEPARTMENT OF HEALTH

                                                                 Washington , D. C.   20201

              Administration on Aging




              TO:        Richard po Kusserow
                         Inspector General

              FROM:      Acting Commissioner on Aging

              SUBJECT:   Comments on the OIG Draft Reports on Resident
                         Abuse in Nursing Homes


              The Administration on Aging (AoA)  appreciates the
                                                                 Resident
              opportuni ty to comment on the OIG draft reports "
              Abuse in Nursing Homes: Respondent perceptions of Issues
              and " Resident Abuse in Nursing Homes: Resolving Physical
              Abuse Complaints 0   We are pleased that the current draft

              reports incorporate changes which respond to most of the

              concerns that AoA expressed about the earlier draft

              materials 0 We want to thank George Grob for his time and
              diligence in making the necessary changes
                                                    addressed, we continue

              While most of our comments have been 

              to have serious concerns about one major The
                                                         itemExecutive

                                                               in the report

              on Resolving physical Abuse Complaints 

              Summary (po iii) under Recommendations relating to Federal
              Responsibili ties proposes, among other things, that the

              Administration on Aging should expand and strengthen its

              efforts to issue periodic public reports concerning abuse

              trends This topic. is discussed further on page 17 of the
               report which notes that, while the AoA Ombudsman Report is a

              major indicator of nursing home abuse, it cannot be used to

               obtain reliable national counts of abuse (particularly for

               specific problem areas 0  The report goes on to state that,

               for several reasons which are cited 

                                                    (p 0 18), there are no
               adequate national nursing home abuse statistics to provid

               an incidence rate or trend for nursing home abuse 


               We concur with the observation that thereorare no data
                                                            trend      which

                                                                   regarding

               can be used to provide an incidence rate

               nursing home abuse    The impediments to the collection ty
                                                                        of

                                                                          of

               such data which the report cites are beyond the capaci 

               AoA to overcome    Therefore, it is not possible for AoA to

               respond to the report' s recommendation to expand and

               strengthen its efforts to issue periodic public reports

               concerning abuse trends    In light of the report' s own
               conclusions regarding the significant nature of impediments

               to the collection of tren data, we once again request that

                            - 2­

the recommendation concerning AoA which appears on 

                                                   p. iii

the Executive Summary delete any reference to issuance of

reports on abuse trends and be revised to read:

    The Administration on Aging (AoA) should expand and

    strengthen its efforts to 1) issue best practices for

    preventing and deali ng wi th resident abuse, 2) promote
    public awareness and education concerning abuse occuring
    in nursing homes and 3) promote use of volunteer
    Ombudsman in nursing homes.
Again, we appreciate the opportuni ty to review and comment

on the draft reports prepared by OIG.

                                                                                , "




                                                                                        APPENDIX E


                                     PUBLIC COMMENTS


Comments were received from several organizations with interests pertaining to the
elderly, nursing homes , or law enforcement:

                  American Association of Homes for the Aging
                  American Health Care Association
                  National Aging Resource Center on Elder Abuse
                  National Association of Chiefs of Police
                  National Association of Medicaid Fraud Control Units
                  National Citizen s Coalition for Nursing Home Reform
                  Police Executive Research Forum

Additional comments were received from a select representation of State and local
entities involved directly or indirectly with issues relating to the elderly, nursing
homes , or law enforcement. All comments were reviewed and analyzed. Findings
and recommendations in both reports' reflect many of the pertinent concerns and
issues raised by the commentors on the draft reports.

The following are short excerpts expressing concerns and observations of report
reviewers:

    I am disturbed by the absence of national and state statistics in (the) two- part report and
   (the) reliance on the impressions of a small sample of individuals with a skewed view of the
   issue. I am further disturbed by your failure to adequately define the term abuse," which has
   resulted in confused and unreliable findings. " (Nursing Home Advocate)

   MFCUs are required by law to review complaints only in Health Care Facilties that recive
   Medicaid funds and therefore may not even see a large number of complaints. (State
   MFCU)

   "Tere should be a requirement for confidentiality in both the investigative and prosecutorial
   components. Information should not be released to the public until due proces has been
   concluded. (State Complaint Cordinator)

    The subject of due- procs is n t fully explored. An individual who is charged with the
   patient abuse must have an opportunity to clear their name. This proc is very time
   consuming and expnsive. Suffcient attention has not ben focused in this area and it must
   be considered more fully. " (State Complaint Coordinator)

    All persons employed on a status such as aides , cleaning personnel, support peple , etc. , be
   required to be fingerprinted and their applications be sent to the FBI."
                                                                           (Lw Enforcement)
    Law enforcement agencies normally only find out about the caes after the fact. A death or
   injury. In many   ca    the nursing home has a opportunity to destroy evidence to prevent
   publicity, to avoid lawsuits , et al. This would really mean that state and county health
   department would be the agencies who would be the enforcement arm." (Lw Enforcement)
                                                                            APPENDIX F



                                    BIBUOGRAPHY


A Consumer Prospective on Quality Care: The Residents '   Point of VieW   National
Citizens ' Coalition for Nursing Home Reform.

Chance , Paul Attackig Elderly Abuse Psychology Today, September,         1987.


Committee on Nursing Home Regulation , Institute of Medicine Improving the Quality
of Care in Nursing Homes National Academy Press: Washington , D. , 1986.

Congress of the United States , Congressional Board of the 100th Congress Losing A
Millon Minds ,  Offce of Technology Assessment , Washington , DC: Government
Printing Offce , April , 1987.

Dalton , Rex State Effort to Close Hospjtal Points Up Industry Problems The San
Diego Union , October 4, 1987.

Dolon , Ronald and James E. Hendricks An Exploratory Stuy Comparing Atttues
and Practies of Police Offcers and Social Service Providers in Elder Abuse and
Neglect Cases Journal of Elder Abuse and Neglect , Volume 1 , No. , 1989.

Doty, Pamela and Ellen Wahl Sullvan Community Involvement in Combating Abuse
Neglect, and Mistreatment in Nursing Homes Milbank Memorial Fund
  uarterl ealth and Socie , Vol. 61 , No.   , 1983.


Douglass , Richard L. Domestic Mistreatment of the Elderly - Towards Prevention
Prepared for the American Association of Retired Persons , Criminal Justice
Servces , Washington, DC: 1987.

Elder Abuse and Neglect: Recommendatins from the Research      Conference on Elder
Abuse and Neglect University of New Hampshire , June , 1986.

Fiegner, Janice J. , Mark Fiegner , and Jack Meszaros Policy Implicatins of a
Statewide Survey on Elder Abuse Journal of Elder Abuse and Neglect , Vol. 1 , No.
 , 1989.



Filnson , Rachel and Stanley R. Ingman Elder Abuse Practice and Policy, Human
Sciences Press ,   Inc. ,   1989.
Fleishman , Rachel and Revital Ronen Qualit of Care and Maltreatment in the
Institins of            International Workshop on Stress , Conflct and Abuse in
                         the Elderly,

the Aging Family, Jerusalem ,                          August 25-   , 1986.


Floyd , Jeanne Collectig Data on Abuse of the Elderly,                                   Journal of Gerontological
Nursing , Vol. 10, No. 12.

Fredriksen , Karen I. Adult Protective Services: Changes with the Introductin of
Mandatory Reportng,   Journal of Elder Abuse and Neglect Vol. 1 , No. , 1989.

Gaynes           State Legilation Relating To
             , Mindy,                                                Abuse And Neglect Of             The        Elderly,

Informational Servce of the National Conference of State Legislatures , Denver
Colorado , Vol. 6, No. , December , 1981.

Generatins Quarterly Journal of the Western Gerontological                                      Society,     Vol. VIII
No. , Spring, 1984.


                                  1986.
Health Care Financing Administration Health Care Financing Review , Volume 7
Number 3 , Spring,

Health Care Financing Administration Program Statistics , Medicare and Medicaid
Data Book , 1988.

Hudson , Margaret F. Analyses of the Concepts of Elder Mistreatment: Abuse and
Neglect Journal of Elder Abuse and Neglect , Volume 1 , No.                                      , 1989.


Lefley, Harriet P.              Agig Parents             as Caregivers of Mentally          fll Adult Children: An
Emergng Social Problem Hospital and Community Psychiatry, Vol. 38 , No. 10
October,         1987.


Lubahn           Family Abuse of the Elderly: Theories on the Absence of Federal
             , Kathry,

Response: The Kingdon Model April 24 , 1986.

Medicare and Medicaid Patint and Program                         (H. 1444), One
                                                                     Protection Act of         1987         R.

Hundredth Congress of the United States of America At the First Session, January
  , 1987.



Moroney, Helen                Abuse of the Elderly,
           The Daily Texan, November 26 ,                    1985.


Morrison , Malcolm H. TIle Aging of the U.S. Population: Human Resource
Implications Monthly Labor Review May, 1983.
          , ,




 National Council on the Aging, Inc. Community Care Quarterly. Fourth Quarter
 1987, Vol. II, No.

National Council of Senior Citizens , Legal Research and Servces for the Elderly,

Elder Abuse and Neglect Reportg and Handling Legilatin Washington

        , December 5 ,   1979.



Nauman , Kate Elder Abuse Laws: Problems of Comparions Between States Field
Seminar (SW687A), Spring, 1986.

  Malley, Terrence A. , Everitt, Daniel E. , O' Malley, Helen C. and Campion , Edward
   Identifying and Preventing Family-Mediated Abuse and Neglect of Elderly Persons
Annals of Internal Medicine (1983. 007- 00 American College of Physicians).

Part l' Elder   Abuse and Famil          violence in the Home: A Review of the Research
(Excerpt), Elder Abuse and Neglect: A Guide
                                                                    1981.
                                                     for Practitiners
Francisco , CA. , The National Paralegal Institute , February
                                                                        and Policy Makers San


Pedrick- Cornell , Claire and Richard J , Gelles Elder Abuse: The          Statu of Current
Knowledge    Family Relations , July, 1982.

Pilemer, Karl and David Finkelhor The Prevalence of Elder Abuse: A Random
Sample Survey       The Gerontological Society of America , Volume 28 , No.          , 1988.


Pilemer, Karl and David W. Moore Abuse of Patients in Nursing Homes: Finings
From a Random Sample               University of New Hampshire , 1988.
                              Survey of Staff,




Pilemer , Karl and Denise Prescott Psychological Effects of Elder Abuse: A Research
Note Journal of Elder Abuse and Neglect , Volume 1 , No. , 1989.

Pilemer, Karl A. and Rosalie S. Wolf Elder Abuse: Conflct in the Family. Auburn
House Publishing Company, 1986.

Plotkin , Martha R. A Time for Dignity , Police Executive Research Forum ,            1988.


Quinn Mary Joy and Susan K. Tomita Elder Abuse and Neglect Causes. Diagnosis.
and Intervention Strategies , Springer Publishing Company, Inc. , 1986.

Sabatino , Charles P. CLE: Home Care Quality: Exploring the Unknown Part I
Bifocal , Vol. 7, No. , Fall 1986.
      Sabatino; Charles P., 
 CLE: Home Care Qualit: Explorig the Unknown Part II,
      Bifocal , Vol. 7 , No. 4, Winter 1986.

      Salend , Elyse, Rosalie A Kane , Maureen Satz, and Jon Pyoos Elder Abuse
      Reportng: Limitatins of            The Gerontologist , Vol. 24, No. , 1984.

                                                  Statutes      1,




      Select Committee on Aging, House of Representatives , Ninety- Seventh Congress
Iii


                                                San Francisco , Calif: U. S. Government
      Physical and Financial Abuse of the Elderly, 


      Printing Offce Washington, April 3, 1981.

      Skolnick , Barbara and Pamela Warrick The Right Place at The Right Time: A
                                                                               , Health
      Guide to Long- term Care Choices American Association of Retired Persons
      Advocacy Servces Program Department , 1985.
                                                                              1988 Ed.
       Special Committee on Aging, United States Senate Aging America , 1987-

       Special Committee on Aging, United States Senate Information Requirements for
                                                                         Hospital Long
       fuuating the Impacts of Medicare Prospective Payment85-on8),Post-
                                                                    Washington , D.
       Term- Care Servces: Preliminary Report , (GAOIPEMD-
         S. General Accounting Office , February 21 , 1985.

       Special Committee on Aging, United States Senate Nursing Home Care: The
       Unfinished Agenda May 21 ,                            1986.


       Subcommittee on Health and Long-Term Care of the Select Committee on Aging,
       House of Representatives , Ninety- Ninth Congress Elder Abuse: A National Disgrace
       Washington , D. , U. S. Government Printing Office , 1985.

        Surgeon General's Workshop on Violence and Public Health Elder Abuse ­
                                                                              , 1985.
       Prevention               Evaluation/Treatment of Victims October 27-

        United States General Accounting Offce , Report to the Chairman , Subcommittee on
        Intergovernmental Relations and Human Resources , Committee on Government
        Operations , House of Representatives An Aging Society Meeting the Needs of the
        Elderly While Responding to Rising Federal Costs , (GAOIHRD- 86- 135) September
        1986.

        United States General Accounting Offce , Briefing Report to the Chairman
        Subcommittee on Health , Committee on Ways and Means , House of
        Representatives               iminary Strategies for Assessing Quality of Care.
                                      Medicare:


         (GAOIPEMD- 87- 15BR) July, 1987.
United States General Accounting Office , Fact Sheet for the Chairman
Subcommittee on Intergovernmental Relations and Human Resources , Committee
on Government Operations , House of Representatives Medicaid: Results of Certified
Fraud Control Units , (GAOIHRD- 87- 12FS) October, 1986.

United States General Accounting Office, Report to the Ranking Minority Member
Special Committee on Aging, U. S. s.enate Medicare and Medicaid: Stronger
Enforcement of Nursing Home Requirements Needed , (GAOIHRD- 87- 113) July,
1987.

United States General Accounting Office , Report to the Secretary of Health and
Human Servces Medicaid        ressing the 
 eeds of Mentally Retarded Nursing
Home Residents , (GAOIHRD- 87- 77) April, 1987.

Wolf, Rosalie S. and Karl A. PiIemer Working with ' abused elders: assessment.
advocacy. and intervention , University of Massachusetts Center on Aging, 1984.
                                                                        Neglect:
Wolf, Rosalie S., Karl PiIemer, and Michael A. Godkin Elder Abuse and
                                                                         Aging,
Report from Three Model Projects , University of Massachusetts Center on
198




                                                            'AU. s. GOVERNMENT PRINTING OFFICE: 1990/762­
                                                                                                          466
